  Simplified Address Mail: An Easier Way for
 Small Businesses to Reach Local Customers




                               May 10, 2011




Prepared by U.S. Postal Service Office of Inspector General
            Risk Analysis Research Center
            Report Number: RARC-WP-11-004
U.S. Postal Service Office of Inspector General                                                           May 10, 2011
Simplified Address Mail: An Easier Way                                                                 RARC-WP-11-004



         Simplified Address Mail: An Easier Way for Small
              Businesses to Reach Local Customers


                                            Executive Summary

Many small businesses seem to be frustrated with the lack of easy-to-use, effective, and
affordable advertising options. Sending advertising mail to every address within their
community could be a preferred way to connect to potential local customers, but many
have traditionally found the Postal Service difficult to use. They can find the rules, rates,
and regulations complex, confusing, and cumbersome. Until recently, the Postal Service
required that all mail pieces in saturation mailings be fully addressed (number and
street, city, state, and ZIP Code) unless they were to be delivered by rural carriers or
were government mailings, in which case only a simple address such as “Postal
Customer” was required.

Effective January 2, 2011, the U.S. Postal Service loosened its restrictions by allowing a
“simplified address” for all saturation mailings consisting of “flat-size” mail (i.e., mail that
exceeds certain size dimensions).1 In 1934 and again in the mid-1950s, the Post Office
Department briefly allowed simplified addressing for saturation mail, but on both
occasions it was discontinued due to concerns raised by parties such as address list
providers and non-mail advertising media.

The U.S. Postal Service Office of Inspector General (OIG) has previously suggested
that the Postal Service consider the simplified address concept in particular and
simplified rules and pricing in general. We began this review of simplified address in fall
2010. Key findings from this current study include:

        Simplified address is a significant opportunity that stems from the Postal
         Service’s core, hard-copy mail delivery business. It could help keep mail relevant
         in an increasingly digital world.

        Adding profitable simplified address mail volume to the Postal Service’s largely
         fixed cost delivery network could lower average unit costs and make universal
         service more affordable for all current and potential mail users.

        Simplified address makes advertising mail both easier to use and far less
         expensive for small businesses and other organizations that have traditionally
         shied away from directly using the mail.



1
  Mail is classified as a flat if at least one of its dimensions (height, width, thickness) exceeds the maximums of letter
size mail (11 1/2 inches high, 6 1/8 inches wide, 1/4 inch thick). The maximum dimensions for a flat are 12 inches
high, 15 inches wide, and 3/4 inch thick.



                                                             i
U.S. Postal Service Office of Inspector General                                   May 10, 2011
Simplified Address Mail: An Easier Way                                         RARC-WP-11-004


       Removing the artificial constraint to fully address all pieces on city carrier routes
        can also make it simpler and more cost effective for the Postal Service.

       Recipients enjoy getting mail from familiar local businesses and think simplified
        addressing is a good idea. Recipients care more about who sent their mail, how it
        looks, and if it is relevant to them — not how it is addressed.

       Giving small businesses a simple and inexpensive means to connect with their
        customers could help support the nation’s economic recovery. Effective
        advertising stimulates consumer spending, and increased consumer spending
        improves profits for small businesses, thereby potentially enabling those
        businesses to create new jobs or retain existing jobs.

       Among posts in industrialized countries, unrestricted simplified addressing has
        long been the standard practice and often accounts for significant mail volume.
        The U.S. Postal Service has been the sole exception. In fact, about one-third of
        Canada Post’s mail volume comes from simplified address.

       If fully promoted and implemented, a simplified addressing program could
        potentially improve the Postal Service’s annual net income by an estimated
        $1.2 billion.

While the Postal Service deserves praise for introducing greater use of simplified
address mail and for the many actions it has taken to define and support it, success is
dependent on optimal structuring of the program. In that vein, we offer some
suggestions for improvement.

Most importantly, we believe simplified address needs to be truly easy for small
businesses and others to use. The mail preparation and acceptance procedures must
be simple and straightforward, and the customers need to understand the product.

Second, we suggest that simplified address cannot reach its full potential without
attention to sales and promotion. Reaching millions of small businesses is no easy task,
but this needs to happen if the product is to meet its full potential.

The Postal Service needs to price this product correctly to meet the demands of small
businesses and others with limited resources. As the product grows and more is learned
about how much it costs and the nature of customer demand, the Postal Service could
explore developing prices specifically for this product.

Finally, we believe that adding various product features could improve the potential of
simplified address. For example, both domestic market research and the experience of
foreign posts suggest that postcard-style mailers of all sizes might be a preferred
product mailing option for small, local businesses and other organizations.




                                                  ii
U.S. Postal Service Office of Inspector General                                                                    May 10, 2011
Simplified Address Mail: An Easier Way                                                                          RARC-WP-11-004




                                                 Table of Contents

Background ..................................................................................................................... 1 

Mail as an Advertising Medium ....................................................................................... 3 

Assessment of Simplified Address Mail........................................................................... 5 
          The Need for New Postal Products ...................................................................... 5 
          Simplified Addressing in Other Countries Can Guide the Postal
          Service ................................................................................................................. 6 
          Postal Service Financial Benefit ........................................................................... 7 
          Benefits for Small Businesses and Others ........................................................... 8 
          Impacts on Other Stakeholders ............................................................................ 9 
          “Junk Mail” Concerns .......................................................................................... 11 
          Mailbox Access Concerns .................................................................................. 12 

Product Features and Other Issues to Consider ........................................................... 13 
          Ease of Use ........................................................................................................ 13 
          Promotion ........................................................................................................... 14 
          Pricing ................................................................................................................ 15 

Conclusion .................................................................................................................... 16 




                                                                 iii
U.S. Postal Service Office of Inspector General                                                       May 10, 2011
Simplified Address Mail: An Easier Way                                                             RARC-WP-11-004




                                                    Tables

Table 1             Simplified Address Products .................................................................. 3 

Table 2             Total Advertising Expenditures by Media 2010...................................... 4 

Table 3             Canada Post and US Postal Service Comparison ................................. 7 


                                                    Figure

Figure 1            Addressing Examples ............................................................................ 1 


                                               Appendices

Appendix A          Simplified Addressing in Other Countries ............................................ 18 

Appendix B          Projected Annual Postal Service Financial Benefit .............................. 24




                                                         iv
U.S. Postal Service Office of Inspector General                                     May 10, 2011
Simplified Address Mail: An Easier Way                                           RARC-WP-11-004




               Simplified Address Mail: An Easier Way for Small
                 Businesses to Reach Local Customers


Background
Until recently, small businesses and other customers wanting to send advertising mail to
every address in a specific city delivery geographic area have had to fully address every
piece with the precise number and street, city, state, and ZIP Code for each household.
Such businesses face complex rules, rates, and regulations that can be confusing to
nonprofessional mailers. The burdensome requirement to address every piece has
made saturation mail harder to use and more expensive to produce than necessary.
Mail delivered on rural or highway contract routes have long been exempt from this
requirement as have government mail pieces. Mail not requiring the full address of
every recipient on the route is called “simplified address” mail. In such instances, a
common phrase such as “Postal Customer” is all that is required on the mail piece.
Examples of the various types of addressing required are presented below:
                                     Figure 1: Addressing Examples


   Full Addressing                 Two-line Simple Address           One-line Simple Address
  Occupant
  123 Main Street                        Postal Customer                Postal Customer
  Fairfax, VA 22033                      Fairfax, VA 22033



Because of postal regulations mandating full addressing, small businesses and other
saturation mail users were previously burdened with the time and expense associated
with acquiring and maintaining a current delivery-sequenced address list and either
affixing address labels or printing addresses directly on every mail piece. Then, the
Postal Service had to sort and deliver the pieces to the exact address specified on each
mail piece, even though every piece in the mailing may be identical except for the
required full address. This restrictive and wasteful addressing requirement prompted
previous attempts to develop a simpler generic addressing method that would benefit
both mailers and the Postal Service.

During the 20th century, the Postal Service made a number of attempts to offer
simplified address mail. As far back as 1934, the Post Office Department began
allowing a simple address such as “Patron, Local” for matter intended for every stop on
a city delivery route. This practice was discontinued after less than 9 months. Then in


                                                   1
U.S. Postal Service Office of Inspector General                                                         May 10, 2011
Simplified Address Mail: An Easier Way                                                               RARC-WP-11-004


1953, a product called “Patron Mail” was terminated, this time after 19 months, despite
                             its growing popularity among many small retailers and
 The Postal Service          service establishments, large insurance firms, and others
 experimented with           who saw it as an effective, low-cost vehicle to communicate
 simplified addressing       with current and potential customers. In both cases,
 in 1934 and 1953.
                             simplified address generated opposition from various
special interests, notably powerful media such as newspapers and magazines who
popularized the pejorative term “junk mail.”2

After passage of the Postal Reorganization Act of 1970, which envisioned a financially
independent and less politicized Postal Service acting in a “business-like” manner,
simplified address mail was considered at various times but was never implemented,
even on a trial basis. In the mid-1990s, following favorable market research and
discussions with small businesses, senior postal management initially approved a
simplified address product called “Neighborhood Mail.” It was designed to make direct
mail more affordable and easier to use for small businesses. However, shortly after a
1995 market test was announced, management abandoned the project in the face of
criticism from various opponents. At the time, a number of small businesses expressed
disappointment that the market test had been cancelled.

On December 16, 2010, the Postal Service announced that beginning January 2, 2011,
it would allow a new simplified addressing option for saturation flat-size mail pieces on
city carrier routes that it has named “Every Door Direct Mail” (EDDM).3 Soon after, the
Postal Service requested permission from the Postal Regulatory Commission (PRC) for
a two-year market test of a specific simplified address mail product with different
requirements named “Marketing Mail Made Easy” (MMME). On March 4, 2011, the PRC
approved the MMME market test. The Postal Service recently changed the name from
MMME to “EDDM-Retail.”




2
  See Richard B. Kielbowicz, “Origins of the Junk-Mail Controversy: A Media Battle over Advertising and Postal
Policy,” Journal of Policy History, vol. 5, No. 2 (1993).
3
 The announcement states that the Postal Service would now allow simplified address for saturation flat-size pieces
and irregular parcels delivered by city carriers or to Post Office boxholders at Post Office locations with city delivery
service. Mail pieces must include the city, state, and ZIP Code if they are not dropshipped directly at the destination
delivery unit (DDU). Flat-size mail pieces, commonly called “flats,” exceed one of the dimensional standards for letter-
size mail (11-1/2 inches long, 6-1/8 inches high, and ¼ inch thick) but do not exceed certain maximum dimensions
(15 inches long, 12 inches high, and ¾ inch thick). Irregular parcels include parcels that do not meet Postal Service
parcel sorting machine standards, such as rolls, tubes, and enveloped articles that are neither letter-size, flat-size,
non-machinable parcels. Merchandise samples are examples of Standard Mail irregular parcels.



                                                           2
U.S. Postal Service Office of Inspector General                                                                  May 10, 2011
Simplified Address Mail: An Easier Way                                                                        RARC-WP-11-004


The chart below compares the main features of the simplified addressing option the
Postal Service offered starting January 2011, EDDM, with the new product EDDM-
Retail, currently under market test.

                                    Table 1: Simplified Address Products

    Features                              “Every Door Direct Mail (EDDM)”                 “EDDM - Retail” (Currently
                                                                                          under market test)

    ELIGIBLE MAIL FORMATS                 Standard Mail Flats.                            Standard Mail flats.
                                          Bound Printed Matters (BPM) Flats.              Per piece weight up to 3.3 oz.
                                          Periodicals Flats.
                                          Nonprofit Standard Flats.
                                          Irregular parcels.
                                          Per piece weight up to 15.994 oz for Std
                                          Mail.
    MAIL PERMIT, PERMIT FEE OR            YES                                             NO
    ANNUAL MAILING FEE                                                                    Existing permits can be used.

    VOLUME RESTRICTIONS AND               At Business Mail Entry Units (BMEUs)            At Retail Locations or Destination
    ACCEPTANCE                            Not less than a carrier route.                  Delivery Unit
                                                                                          Maximum daily quantities of 5,000
                                          At Retail Locations or Destination Delivery     pieces per mailer, per day, but not
                                          Unit                                            less than a carrier route.
                                          Maximum daily quantities of 5,000 pieces
                                          per mailer per day, but not less than a
                                          carrier route.
    PREPARATION REQUIREMENTS              “Simplified Address” option for Standard        “Simplified Address” option for
    AND MAILING DOCUMENTATION             Saturation Mail (DMM 602.3.2.2 through          Standard Saturation Mail (DMM
                                          602.3.2.5).                                     602.3.2.2 through 602.3.2.5) with
                                                                                          new, simplified mailing statement.
                                          Facing slip or carrier route information line
                                          on each bundle.                                 Facing slip or carrier route
                                                                                          information line on each bundle.
                                                                                          A sample mail piece.
    PAYMENT                               Trust Account.                                  Payment in full.
                                          Cash or Check.                                  Cash or Check or Debit Card.
                                          Debit Card.                                     Metered Postage.
                                          Pre-cancelled Stamps.                           No Trust Fund Payments.
                                          Metered Postage.
   Source: Postal Service publications.

Both EDDM and EDDM-Retail are open to all sized mailers and consolidators. However,
EDDM-Retail, given its restrictions on volume, limited drop off locations, and simplified
mailing statement, is intended to more specifically target the needs of small local
businesses. In addition, mailing permit fees have been waived for EDDM-Retail. Such
fixed, up-front fees have an inordinately large impact on small volume mailers, but
almost no affect on large mailers where the same costs are spread over thousands or
even millions of pieces.


Mail as an Advertising Medium
Before assessing simplified addressing and related issues, it is appropriate to briefly
highlight the most recent trends in the overall advertising market.




                                                               3
U.S. Postal Service Office of Inspector General                                                May 10, 2011
Simplified Address Mail: An Easier Way                                                      RARC-WP-11-004


The growing consumer preference for new digital communication media, the availability
of sophisticated online marketing tools with improved targeting capabilities, and the
economic recession that forced advertisers to opt for lower-cost marketing channels,
are drastically changing the distribution of advertising expenditures across the various
media.

While the relevance of traditional newspapers, radio, TV, and magazines is declining
due to a shift to more interactive online formats, the use of digital and mobile channels
is rapidly expanding and attracting growing investments in marketing.

Table 2 provides the total 2010 advertising expenditures in the United States split by
media and the related percentage change from 2009 levels.
                        Table 2: Total Advertising Expenditures by Media 2010
                   Media                       2010 Expenditure by       Change from 2009
                                                 Media (billions)
                   TRADITIONAL
                   OUTDOOR                           $ 6.1                     -0.5%
                   RADIO                             $13.5                     -4.4%
                   MAGAZINES                         $14.6                     -6.2%
                   NEWSPAPERS                        $23.4                     -9.2%
                   CINEMA                             $0.6                      2.3%
                   TELEVISION                        $56.4                     17.5%

                   DIRECT AND DIGITAL
                   INSERT MEDIA                       $0.8                      2.4%
                   PRINT                             $15.0                     -3.6%
                   BROADCAST TV                      $23.6                      3.8%
                   DIGITAL                           $27.7                      8.5%
                   DIRECT MAIL                       $45.2                      3.1%
                   TELESERVICES                      $39.5                      0.1%
                   OTHER                              $2.6                      6.1%


                   TOTAL                            $269.0                      2.9%

                   Source:   Winterberry Group. Outlook 2011: What to Expect in Direct &
                             Digital Marketing, January 2011.

The possibility of reaching more customers, more often, at relatively lower cost and with
greater precision and relevance is a key item contributing to the success of online
advertising. In addition, there is growing interest among small businesses in using the
web as a source to connect with their “neighborhood.” New location-tracking
technologies enable the identification of potential customers through their mobile
devices and the sending of offers and coupons to direct them to a nearby store.

However, online advertising has limited penetration and is not accessible to all. The
“digital divide” excludes large groups of consumers from receiving discounts and offers
via the Internet. The use of the most sophisticated marketing technologies and
techniques can be complicated and expensive, especially for many small local retail
businesses with limited resources and know-how. In addition, electronic communication


                                                       4
U.S. Postal Service Office of Inspector General                                                  May 10, 2011
Simplified Address Mail: An Easier Way                                                        RARC-WP-11-004


channels pose problems with delivery (for example, anti-SPAM and other filters applied
to emails) which result in low response rates while also raising privacy concerns.

Despite these changes, direct mail still accounts for a notable share of U.S. advertising
expenditures, but is growing at a slower pace than in the past. Digital media have
mostly been integrated with direct mail rather than displacing it. Mail advertising
continues to be more effective for customer acquisition and is more targeted and less
invasive than other channels. Together with email, it remains the most used marketing
media among small businesses.4

In this evolving and competitive context, the introduction of simplified addressing would
help keep mail relevant, by responding to:

        Small retailers seeking cost effective and targeted advertising tools to reach and
         stay in touch with their local community.

        Start-ups or businesses without specific marketing expertise that would have an
         easy “bridge” product before moving to more structured mail and marketing
         options.

        Customers seeking ways to easily integrate direct mail into their marketing mix.

        Non-digital consumers willing to receive deals and offers.


Assessment of Simplified Address Mail
Simplified addressing for saturation mailings can be assessed from a wide variety of
perspectives. If implemented well, simplified address mail could help the Postal Service
financially while helping small businesses reach potential customers in an easier and
less expensive way. The Postal Service can look to other industrialized posts to
benchmark best practices. However, other stakeholders’ interests should also be
considered when deciding the best course of action.

The Need for New Postal Products

The implementation of new products that support customers and improve its bottom line
is of paramount concern for the Postal Service. In fact, profitable new volume benefits
                                    all mailers and consumers in the long run by
   Simplified address mail has the
   potential to significantly
                                    helping the Postal Service fulfill its fundamental
   increase volume and help the     obligation of affordable universal service.
    Postal Service’s finances.
                                    Volume is significant because the Postal Service is
a network industry and the vast majority of the costs for its delivery network are fixed.
Greater volume spread across this network would lower the average unit cost of every
4
 Direct Marketing Association, The Integrated Marketing Media Mix: Benchmark and Trends for Successful
Campaigns, 2008.



                                                       5
U.S. Postal Service Office of Inspector General                                  May 10, 2011
Simplified Address Mail: An Easier Way                                        RARC-WP-11-004


mail piece delivered. A service such as simplified address mail, which has the potential
to significantly increase delivered volume could dramatically help the Postal Service and
all users of the network. With lower average costs, the same level of service can be
provided at a lower postage cost, thus benefiting all Postal Service customers in the
long run. In addition, delivery costs are being driven up by the steadily increasing
number of delivery points, which have grown from 117 million in 1990 to 151 million in
2010. This increase exceeds population growth during the same period (29 percent vs.
24 percent) and adds to the fixed cost base of the Postal Service. Adding new volume
helps the Postal Service respond to this trend.

Simplified Addressing in Other Countries Can Guide the Postal Service

For many years, the United States has been the only major industrialized country in the
world that did not offer unrestricted use of simplified addressing for saturation mailings.
The January 2, 2011, rule change permitting simplified addressing for flat-size
 The United States has
                               saturation mail on city routes is a significant first step
 been the only major           toward the international standard practice. Though the
 industrialized country        Postal Service’s pursuit of simplified address mail should
 that did not offer            hinge on relevant circumstances in the United States, its
 simplified address.           prominence in other countries should be carefully
                               considered. The long experience that many posts have
with simplified address mail can help guide the Postal Service as it moves forward.

Some of the key observations concerning simplified address mail in foreign countries
are as follows:

       Foreign posts provide online tools that help users manage their geographic
        targeting. These tools normally include mapping features, and often include
        demographic and behavioral data as well.

       In many countries, small- and medium-size businesses are able not only to select
        the delivery area, but also create their mail piece, print, and pay for their mailing
        themselves, completely online.

       Foreign posts provide a variety of services including mail piece design, printing,
        preparation, and distribution. Many also offer pickup services for this mail.

       Foreign posts often require mailers to book their mailing in advance, and some
        allow them to specify a delivery date, for a fee.

       Recipients often have the option of affixing a “No Unaddressed Advertising
        Material” sticker on their mail receptacle, and foreign posts honor these requests.

       Simplified addressing is applicable to a broad range of items, some weighing well
        over one pound.

       Postcards are very popular with many foreign posts.



                                                  6
U.S. Postal Service Office of Inspector General                                                           May 10, 2011
Simplified Address Mail: An Easier Way                                                                 RARC-WP-11-004


          For many postal operators, simplified address mail is a significant portion of their
           mail volume and for some it becomes a separate business unit.

Additional details regarding simplified address mail at foreign posts are provided in
Appendix A, where six countries are profiled.

Though the exact volume of simplified address mail is not known at all posts, there is
variation across countries. Because of geographic and cultural similarities, we believe
Canada’s experience with this mail may best indicate its potential here in the United
States. In 2009, Canada Post delivered 3.6 billion unaddressed mail pieces. This
represented about one-third of Canada Post’s total mail volume, and equaled 107
pieces per capita. If the United States were to achieve this much per capita volume, it
would amount to 33 billion mail pieces per year.5

                         Table 3: Canada Post and U.S. Postal Service Comparison
                 Item                                                   Canada           U.S. Postal
                                                                         Post              Service
                 Total mail volume                                      11 billion        177 billion
                 Simplified address6 volume                             3.6 billion          NA
                 Country population                                     34 million        308 million
                 Per capita simplified address volume                      107               NA
                 Country advertising expenditures
                 (estimated)                                            $23 billion      $269 billion
                Source: 2009 Annual Reports and Public Advertising Survey Results.


Postal Service Financial Benefit

Combining the high potential volume with the fact that Saturation Standard Mail has a
high profit margin, suggests the potential financial benefit for the Postal Service is
significant. A typical dollar of existing Saturation Standard Mail revenue generates about
55 cents of “profit.”7



5
  33 billion = (107 pieces per capita) x (308 million people reported in the 2010 U.S. census). Many factors could
influence such estimates. On the one hand, Canada’s Unaddressed Admail rates are lower than the Postal Service’s
rates for Saturation Standard Mail. This suggests that since low rates stimulate volume, reaching Canada’s per capita
volume of 107 pieces could be difficult at current Postal Service rate levels. On the other hand, there are factors
suggesting that a well-marketed program in the United States could achieve simplified address volume greater than
Canada’s 107 pieces per capita. First, the Canadian economy was in recession during 2009 and advertising was at a
low point then. Second, though Canada and the United States have similar GDP per capita, the proportion of national
GDP represented by advertising in the United States is higher than it is in Canada. Third, total mail volume per capita
in the United States is nearly twice as high as in Canada.
6
    Canada Post calls their product “Unaddressed Admail.”
7
  The Postal Service studies the financial performance of its various mail classes and products through extensive
data collection and analysis that is reviewed by the independent PRC and others. Volume variable costs are
attributed to its various mail classes and products. Those “attributable costs” are compared to corresponding
revenues. When a mail class’s revenue surpasses its attributable cost, the excess is considered its “contribution”
toward funding the Postal Service’s overall fixed costs (“institutional costs” in postal parlance). This contribution can
be viewed as that mail class’s profit and is referred to as such in this paper. The 55-cent figure is derived from data


                                                             7
U.S. Postal Service Office of Inspector General                                                           May 10, 2011
Simplified Address Mail: An Easier Way                                                                 RARC-WP-11-004


Therefore, new Saturation Standard Mail volume could result in significant profitable
revenue for the Postal Service. While it is uncertain exactly how much simplified
address mail volume would be new mail as opposed to migration from different
categories, the available market research indicates that simplified addressing will
prompt new mail volume and revenue because it will allow mailers to avoid the expense
and inconvenience of full addressing. A significant portion of mail could be expected
from those small- and medium-size businesses that have not used the mail because of
perceptions it was too complicated and expensive. In addition to postage, mailers have
                                   had to pay an annual fee up front and mailers on city
  Market research indicates        routes have had to purchase mailing lists and print
  that simplified addressing       those full addresses on every piece. For small
  will prompt new mail volume      businesses, such preparation costs can add
  because mailers will be able     significantly to the total mailing budget.
    to avoid the expense and
    inconvenience of full         We use Saturation mail’s current profit margin as a
    addressing.
                                  proxy to estimate the potential profit margin for
simplified address mail.8 We adopt Canada Post’s experience with “Unaddressed
Admail” to project the volume potential here in the United States. Combining the profit
margin estimate with the Canadian-based volume assumption, we estimate that
simplified address could improve the Postal Service’s annual net income by $1.2 billion
as detailed in Appendix B.

In addition, the infrastructure already exists to profitably handle significant new volumes
of simplified address saturation mail. No initial investment is required except sales and
promotional expenses to get the word out to potential new users. For a product with
such significant future revenue potential, the relatively modest start-up cost is probably
unique.

Benefits for Small Businesses and Others

Small businesses represent a significant potential market for the Postal Service. There
are almost 30 million businesses in the United States,9 which account for nearly one-
half of total advertising expenditures. Although direct mail still remains one of the most
used marketing media, many small businesses have never directly used mail at least


underlying the Postal Service’s 2010 Cost and Revenue Analysis report. “Profit margin” equals profit per dollar of
revenue (= [Revenue – Attributable Cost]/Revenue).
8
 Simplified address mail could be less costly and therefore even more profitable than Saturation Standard Mail.
Unlike fully addressed Saturation Standard Mail, when simplified address mail is manually sequenced into a
separation or delivered into a mail receptacle it does not need to match a particular address. This simplifies both
operations, thereby offering cost savings possibilities. During the initial stages of the simplified address program, this
benefit could be somewhat offset temporarily by higher acceptance costs if inexperienced mailers drawn to simplified
address require exceptional postal clerical time answering questions. However, this potential start-up cost could be
minimized if prospective mailers are educated via an effective postal website and user’s guide dedicated to simplified
addressing. Product features making simplified address mail easy to use would also help. Both topics are discussed
in the section Product Features and Other Issues to Consider.
9
 Office of Advocacy estimates based on data from the U.S. Department of Commerce, Bureau of the Census, and
U.S. Department of Labor, Employment and Training Administration.



                                                            8
U.S. Postal Service Office of Inspector General                                                         May 10, 2011
Simplified Address Mail: An Easier Way                                                               RARC-WP-11-004


partially because they do not know enough about it. Simplified address mail would
represent an ideal entry-level, affordable product to get them started with direct mail.

When simplified address mail was last allowed on city delivery routes, it proved to be
popular among small businesses.10 The qualitative market research conducted by
National Analysts for the Postal Service when it was considering Neighborhood Mail
found that:

            Advertisers and mailers believe third-class advertising mail [now Standard
            Mail] is likely to increase because the simplified address option will make
            advertising mail more affordable to smaller, local advertisers and it will
            free up revenue for large saturation advertisers to increase their
            mailings.11

Today, many small and local businesses are frustrated with the lack of easy-to-use,
                                            effective, and affordable advertising options.
  Small and local, businesses are           Simplified address mail is intended to
  frustrated with their lack of easy,       provide an additional option to help them do
  effective, and affordable advertising     this better. Time will tell how many
                                            businesses will eventually be attracted to
simplified address mail and to what extent, but if successful, it could create widespread
economic benefits. If businesses do a better job of reaching potential customers,
consumer spending could increase. This could benefit small businesses and other users
with improved profits and could help create new jobs or preserve existing jobs.

Impacts on Other Stakeholders

The Postal Service has an essential responsibility to facilitate access to the mail for all
potential users and simplified address mail could be a key means to help do that.
However, various stakeholders may be affected in different ways, as discussed below.

Mail Service Providers
Rather than interface directly with the Postal Service, sometimes customers outsource
mailing-related duties to others. They hire intermediaries called mail service providers
(MSPs) who provide services that help mailers comply with the complex maze of postal
addressing, mail preparation, acceptance, pricing, and payment rules and procedures.

Though simplified addressing has raised concerns for some MSPs in the past, times
have changed and simplified address could also be seen as an opportunity. In fact, the
potential market for MSP services could expand if the simplified address program
attracts new businesses into the mailstream as expected.12 After being introduced to the
value of mail via simplified address, some businesses could be expected to refine or
10
     Patron Mail Research Findings, December 16, 1954.
11
     National Analysts, Inc., Simplified Address Study – Topline Summary, September 9, 1994, p.13.
12
 See comments filed by MSPs in PRC Docket No. MT2011-3. http://www.prc.gov/prc-pages/dockets-
search/default.aspx.



                                                           9
U.S. Postal Service Office of Inspector General                                                     May 10, 2011
Simplified Address Mail: An Easier Way                                                           RARC-WP-11-004


expand their mail presence (for example, outside of early geographic lines) and seek
out services from MSPs that would help them target customers who are using, or would
be likely to use, their products and services. The bottom line is while some MSPs have
seen only threats in simplified address mail in the past, there may be great opportunities
available to those that recognize and take advantage of them.

Mail service providers also serve as postal sales partners, because when they sell their
services they are, by definition, also selling mail. Simplified address mail may alter
relationships between small businesses wanting to advertise through the mail and
intermediaries. Therefore, sales partner roles may also change. For example, the Postal
Service is expected to engage printers and national office supply chains to become
more active sales partners in support of small, local businesses. Printers already sell
services to small businesses when they prepare their menus or flyers and they and
others could make simplified address mail known to end customers and help them use
the service more easily. Thus, both existing and new sales partners could start selling
valuable new simplified address mail related services directly to smaller mailers and
creating new opportunities for both.

Competing Advertising Media
In the past, the newspaper industry has expressed concerns about simplified address
mail. Its concerns focused on newspaper inserts, run-of-press ads, and its total market
coverage (TMC) products.13 The newspaper industry’s uneasiness reflects the fact that
advertising is a competitive industry comprised of countless entities in various media
that are continually searching for better ways to satisfy advertisers’ needs. However,
things have changed and it can be argued that such industries may no longer fully
compete with simplified address mail. Given that newspaper circulation is down and
advertising costs are high in some publications, small businesses wanting to blanket a
full community with a simplified address mail piece may not always consider a
newspaper advertisement a viable alternative for their unique goals.

Shared Mailers
Shared mailers (such as those that include flyers from many businesses within one
shared piece) could be affected by simplified addressing. Since many of these are
saturation mailers, simplified address could benefit them by eliminating the need to
maintain address lists and individually address every mail piece. On the other hand,
some small businesses now using shared mail could start using solo mail to take
advantage of its greater impact and readability. In addition, shared mailers make small
businesses captive to the schedule of the shared piece and do not allow small
businesses to closely match the delivery of the piece with a business opening or other
key milestone. Regardless, simplified address mail merely provides another option that
each small business can choose or ignore based on its individual needs.



13
 Some newspapers provide saturation coverage to advertisers by offering a combination of in-paper ads to
subscribers and ads that are placed in separate TMC products delivered by the Postal Service to non-subscribers.



                                                        10
U.S. Postal Service Office of Inspector General                                                          May 10, 2011
Simplified Address Mail: An Easier Way                                                                RARC-WP-11-004


Alternate Delivery Firms
Alternate delivery firms could be affected by simplified address mail. Typically using
low-cost labor, these firms deliver unaddressed advertising matter to all households in a
chosen area. They are prohibited by federal law from delivering their products in
mailboxes and other postal receptacles (see Mailbox Access Concerns below), so the
circulars they deliver are often left in areas homeowners and other recipients find
objectionable. Many advertisers have expressed concerns over the image of alternate
delivery firms relative to the Postal Service.14

Mail Recipients
When the concept of simplified addressing was explained to mail recipients, nearly all
focus group participants thought it was a good idea.15 Many actually favored simplified
addressing over full addressing for two reasons. First, they generally want to see
content from local businesses they know, and they understand that simplified
addressing will help businesses save money when they advertise to their community.
Second, some recipients feel that if their name is not on the mail piece, they are less
vulnerable to identity theft and fraud.

Furthermore, research indicates recipients are not really concerned about the
addressing of their advertising mail.16 Quick identification of relevance is the primary
concern rather than whether it bears a full address or a simplified address. The mail
piece’s perceived content is what is important, and that is often determined by seeing
who sent the mail piece, not how it is addressed.

“Junk Mail” Concerns

The American public has a love/hate relationship with advertising. Consumers welcome
informative advertising promoting products and services that match their personal
interests and needs, and they love to learn about money saving opportunities. On the
other hand, consumers understandably dislike advertising that is not personally relevant
or beneficial to them.

It is a common misperception that First-Class Mail subsidizes Standard Mail.17 This
misconception makes the public more receptive to “junk mail” criticisms. If Standard
Mail volumes were to expand due to a successful simplified address program, some
believe it could generate additional concerns regarding “junk mail.” In the past,
individuals have contended that simplified address will tarnish direct mail’s image and

14
     National Analysts, Inc., Simplified Address Study – Topline Summary, September 9, 1994, p. 9.
15
     Great Lakes Marketing, Simplified Address, Focus Group Research with Consumers, October 18, 2010
16
  Ibid., p. 13. Also, National Analysts, Inc., Simplified Address Study – Topline Summary, September 9, 1994, p. 14.
“The address of the mail piece is of little importance to a large segment of consumers; the contents of the mail piece
are more important than the address in determining if they will open an advertising mail piece.”
17
 Because First-Class Mail is more expensive and contributes more total revenue, some believe it subsidizes
Standard Mail. However, this is not correct as both classes fully cover their costs, thereby negating the possibility of a
subsidy. In fact, Saturation Standard Mail has a substantially higher contribution percentage (cost coverage) than
Single-Piece First-Class Mail (FY 2009 Cost and Revenue Analysis report)



                                                           11
U.S. Postal Service Office of Inspector General                                                         May 10, 2011
Simplified Address Mail: An Easier Way                                                               RARC-WP-11-004


encourage “Do Not Mail” legislation. Though some stakeholders may see these as
legitimate issues, we do not consider them to be compelling public policy arguments.

As stated in the previous section, focus group feedback consistently indicates that mail
recipients are not concerned about the lack of their name or street address on mail
pieces. In fact, some prefer it that way. The decision to read or dispose of a mail piece
hinges on what it says and not how it happens to be addressed.

Research has shown that customers are, in general, far more receptive to mail from
                                  small, local businesses than from distant businesses
 Customers are more               they do not know and cannot easily contact.18
 receptive to mail from local     Recipients seem to care about supporting local
 businesses than from             commerce and can share any feedback either positive
 distant businesses they do       or negative with those businesses directly in person.
 not know.                        Such opportunities can provide outlets for concerns
                                  and may negate the need for legislation. In addition, if
volume ever grew to the point that “Do Not Mail” issues were a concern, they could also
be potentially addressed by considering procedures adopted by foreign posts as
discussed in the section below titled Product Features and Other Issues to Consider.

Mailbox Access Concerns

The Postal Service’s exclusive legal access to mailboxes became law in 1934 and was
upheld by the U.S. Supreme Court in 1981.19 The legal rationale supporting this
“mailbox restriction” at the time was that it helped
protect Postal Service revenue from “cream           The public adamantly favors the
skimming” and keeps unstamped matter out of          mailbox restriction. Market
mailboxes. Other important advantages are that       research found that 82 percent
it promotes privacy for postal customers; it helps   of Americans oppose open
ensure the security of the mail; and it facilitates  access to their mailbox.
postal carrier functions which could otherwise be compromised if mailboxes were
cluttered with non-postal matter.

The public adamantly favors the mailbox restriction. Market research found that 82
percent of Americans oppose allowing just anyone to access their mailbox.20

Some stakeholders may worry that mail without full conventional addresses resembles
the fliers distributed by alternate delivery firms.21 This concern seems unwarranted, not
only because the public does not want the mailbox restriction lifted, but also because
the law’s original rationale had to do with protecting the revenue base needed to
support the Postal Service’s universal mail delivery system. That rationale remains

18
     National Analysts, Inc., Simplified Address Study – Topline Summary, September 9, 1994
19
     18 U.S.C. § 1725 and U.S. Postal Service v. Council of Greenburgh Civic Associations 453 U.S. 114 (1981).
20
 U.S. Government Accountability Office, U.S. Postal Service: Information about Restrictions on Mailbox Access,
Report No. GGD-97-85, May 30, 1997, http://www.gao.gov/archive/1997/gg97085.pdf, p. 2.
21
     EDDM does currently require some form of Postal Service payment identification on each piece.



                                                           12
U.S. Postal Service Office of Inspector General                                   May 10, 2011
Simplified Address Mail: An Easier Way                                         RARC-WP-11-004


valid, perhaps even more so today than in the past, given that revenue has declined
and the Postal Service is in difficult financial shape.

Even if there was linkage between the mailbox restriction and addressing — and we
maintain there is no link — simplified address has been allowed on rural routes for
decades without difficulty.


Product Features and Other Issues to Consider
As the Postal Service moves forward with its simplified address mail service, it may
want to devote additional resources to this product and consider some suggestions
regarding product features, promotion, and pricing. As many of the customers expected
to use simplified addressing are small businesses new to using mail, it is particularly
important to make every facet of the program as easy to use and with as few barriers as
possible.

Ease of Use

There are a series of aspects of the Postal Service’s current simplified address mail
service, ranging from mail addressing and preparation tools and requirements, to “opt
out” procedures and eligible mail shapes, for which ease of use could possibly be
improved, as discussed below.

Mail Addressing and Preparation
Today, when simplified address pieces are deposited at a location other than the
destination delivery unit, mailers must provide a two-line address. While this makes it
                                  easier for the Postal Service should pieces be lost in
 Simplified address must be
 made easy for mailers to
                                  transit, it makes it more difficult for the mailer and ease
 use.                             for the mailer must be an overriding goal.

The Postal Service requires simplified address mailers to prepare bundles that are
carefully separated by carrier route and containing the exact number of pieces per
route. Small, inexperienced mailers can find this burdensome and complicated. An
alternative approach, used in other countries, is for mailers to provide the correct total
and have the postal operator allocate the precise number for each chosen route.
Moving the burden from the mailer to the Postal Service could improve ease of use for
the mailers and result in additional volume and revenue that could more than cover any
small increase in Postal Service costs.

Opt-Out Procedures
Under recently introduced Postal Service rules, recipients can block mail from individual
simplified address mailers, who then must provide the Postal Service with their “opt out”
list when they deposit the mail. This may be impractical and costly for a small business.
When and if simplified address mail becomes widely used, a better approach might be
to give recipients the choice to opt out of the entire mail category by displaying a “no


                                                  13
U.S. Postal Service Office of Inspector General                                                    May 10, 2011
Simplified Address Mail: An Easier Way                                                          RARC-WP-11-004


simplified address mail” sticker on their mailbox, just as some other countries do. The
number of delivery points per route conveyed by the Postal Service to simplified
address mailers would be adjusted to reflect the number of addresses that have opted
out. In some countries, few recipients actually opt out when given the choice.

Online Mapping and Mailing Tools
At present, the Postal Service’s site provides simplified address mail users with a web-
based system to define their delivery area, calculate the number of delivery points,
estimate prices, and print mailing forms. We support the Postal Service’s ongoing plans
to enhance this system by adding an improved visual mapping feature and making
mailing statements increasingly less complicated. We also suggest giving customers the
option of submitting all necessary mailing information and prepaying for their simplified
address mailing directly online.

Some foreign postal operators have developed Internet-based tools to make simplified
addressing easier for small businesses. Through the website of these postal operators,
mailers can, within minutes, create a simplified address mail piece online and send it to
the post for printing and mailing. The U.S. Postal Service could offer a similar service by
leveraging its existing partnerships with online mail service operators or by making
available a list of printers and mail service providers on its web site that offer this option.

Simplified Addressing for Other Mail Shapes
For operational reasons, simplified addressing is currently only allowed for flat-size
Standard Mail, while in other countries all mail shapes within certain dimensions and
weight are eligible for simplified addressing. The Postal Service could consider
expanding the range of sizes to which simplified addressing applies, at least to include
smaller cards. Given their lower production costs, cards are the preferred advertising
format for many small businesses in the United States and abroad, as well as for
recipients, due to the immediacy with which they deliver a promotional message.22

Promotion

                                    The success of simplified address mail will largely
 A compelling web presence
                                    depend on how effective the Postal Service will be in
 and an effective promotional
 campaign are critical success      communicating and marketing the new product
 factors for simplified address     through its online and offline channels. A strong
 mail.                              product branding, a compelling web presence, and
                                    an effective promotional campaign will be critical
success factors for simplified address mail.

Product Branding
Characterizing simplified address mail as a separate product with its own brand name is
a good step toward making it well recognized by customers. Although names such as

22
     Great Lakes Marketing, Simplified Address Focus Group Research with Consumers, October 18, 2010, p. 12.



                                                         14
U.S. Postal Service Office of Inspector General                                          May 10, 2011
Simplified Address Mail: An Easier Way                                                RARC-WP-11-004


“Every Door Direct Mail” and “Marketing Mail Made Easy” communicate the concepts of
ease of use and one-to-one advertising, a more concise term such as “Neighborhood
Mail”, which originated from past market research, may better capture the product’s
essence. The option to further promote the product name with the creation of an
associated logo, according to the example of other posts, could also be considered.

Web Presence
Given its potential, the simplified address mail service warrants greater online attention
and focus. A highly visible link or banner placed on the front of the Postal Service’s web
site, directly driving users to the simplified address mail dedicated page, could be an
easy way to help promote the product. This page could be enriched with continuously
improving customer support material, such as video presentations, contact details of
local postal sales representatives, and lists of approved mail and printing service
providers. An easy-to-understand online manual on simplified address mail, specific to
small businesses, could be particularly helpful to new mailers. Examples of foreign
posts with continuously improving, user-friendly websites include Royal Mail, Deutsche
Post, and Canada Post.23

Marketing Effort
Promotion is absolutely essential for simplified address mail to achieve its potential.
Fully reaching a large and diverse audience such as small businesses will be difficult. At
a national level, this objective could be reached through a large scale marketing
campaign like that for the Priority Mail Flat Rate Box. At a local level, postmasters and
sales people, ideally in collaboration with small business organizations, could help
connect to customers. Utilizing the existing relationships small businesses have with
current partners such as printers could also be helpful and we applaud current efforts
along these lines.

While we encourage promotional efforts, we suggest that issues concerning product
name and brand, website, customer support material, and other product details be
properly resourced and finalized before fully promoting simplified address mail.

Pricing

                                  At least in the short term, the Postal Service plans to
 Lower simplified address         charge the same rate for simplified address mail as it
 rates might be justified in      does for all destination-entered Saturation Standard
 the future.
                                  Mail. After gaining experience with simplified address
mail, more will be known about its costs and demand characteristics. At that time, the
possibility of developing separate prices for simplified address mail should be
considered. Lower rates could potentially be justified by lower costs.

23
  See http://www.royalmail.com/portal/rm/jump2?catId=400092&mediaId=400049,
http://www.deutschepost.de/dpag?tab=1&skin=hi&check=yes&lang=de_EN&xmlFile=link1017281_1010284,
http://www.deutschepost.de/dpag?tab=1&skin=hi&check=yes&lang=de_EN&xmlFile=link1017338_1010544, and
http://www.canadapost.ca/tools/pg/manual/PGunaddadm-e.asp.



                                                  15
U.S. Postal Service Office of Inspector General                                   May 10, 2011
Simplified Address Mail: An Easier Way                                         RARC-WP-11-004


Introducing options such as day-certain or narrowly specified delivery dates could
provide mailers with new opportunities to reach their customers exactly when desired.
Given the potential value to customers of such an option, the Postal Service could
consider charging a fee for delivery on mailer-selected days as many foreign posts do.

Conclusion
We encourage the Postal Service to continue its pursuit of simplified address mail.
Today, the time is right to focus on the needs of its potential small business and other
local users and provide an easy-to-use option to address their unique needs. The
simplified address mail service removes needlessly complicated and costly addressing
regulations for saturation mail and, thus, removes the historical barriers to entry for
small, local businesses wanting to mail on their own. If these businesses benefit from
this new mailing option, so too will the overall economy through increased consumption,
sales, and employment.

The Postal Service will have the opportunity to discover and make further product
improvements as it gains experience with simplified address mail, and we have offered
some suggestions that may be worth implementing. An in-depth study of other
countries’ experiences with this type of mail, including their online marketing methods,
could also provide helpful guidance. To reach its full potential, simplified address must
be made easy and its benefits must be communicated to every small business in
America.

Direct mail has a history of success in the advertising market, particularly when it comes
to geographically targeted advertising which is precisely what simplified address mail is.
In an increasingly digital world, it makes perfect sense for the Postal Service to exhaust
all options within its inherent, hard-copy core. In fact, simplified address mail can act to
maintain the value of the mail in the face of market changes and electronic diversion
with little financial risk. Other than relatively modest sales and promotional expenses, no
significant up-front investment is required.

Simplified address mail can offer worthwhile financial benefits for the Postal Service.
The fact that this type of mail is common in all other industrialized countries suggests
that it could similarly take hold in the United States. This significant financial opportunity
can help support the universal service obligation to the benefit of all mailers and
citizens. We encourage the Postal Service’s current efforts to better meet the needs of
small businesses and other local customers with this valuable service.




                                                  16
U.S. Postal Service Office of Inspector General             May 10, 2011
Simplified Address Mail: An Easier Way                   RARC-WP-11-004




                                            Appendices




                                                  17
U.S. Postal Service Office of Inspector General                              May 10, 2011
Simplified Address Mail: An Easier Way                                    RARC-WP-11-004




Appendix A               Simplified Addressing in Other Countries

The delivery of unaddressed or simplified addressed advertising mail is a long-standing,
standard practice among foreign postal operators. In other countries, the market for
unaddressed mail is mature and competitive with national postal operators generally
holding significant market share. Foreign postal operators usually benefit from greater
flexibility in defining its prices, size, format, and delivery standards, as well as
complementary, value-added service offerings.

The following benchmark analysis compares the main features of the simplified
addressing programs offered by the postal operators of Australia, Germany,
Netherlands, United Kingdom, Italy, and Canada.




                                                  18
                                                                                                                                                                                            Simplified Address Mail: An Easier Way
                                                                                                                                                                                            U.S. Postal Service Office of Inspector General
                          AUSTRALIA POST               DEUTSCHE POST             ROYAL TNT POST               ROYAL MAIL             POSTE ITALIANE                CANADA POST




     SIMPLIFIED         Allowed                     Allowed                    Allowed                   Allowed                  Allowed                      Allowed
     UNADDRESSED MAIL

     SPECIAL            NO                          YES                        NO                        YES                      YES                          NO
     BRAND NAME OR      Unaddressed mail            Unaddressed mail has a     Unaddressed displays      Unaddressed mail has a   Each unaddressed mail        Unaddressed mail
     IMAGE              displays Australia Post’s   separate name and logo     TNT’s generic franking    separate name and logo   product has a separate       displays Canada Post’s
                        generic logo.               (PostWurfSendung).         mark.                     (Door-to-Door).          name and logo                generic “Delivered by”
                                                                                                                                  (PostaZONE).                 logo.

                                                                                                                                  Advertisers can display
                                                                                                                                  their own logo on each
                                                                                                                                  mail piece along with the
                                                                                                                                  product logo.

     MAILABLE ITEMS     Envelopes, postcards,       Brochures, catalogs,       Leaflets, samples, or     Leaflets, catalogs,      Leaflets, brochures,         Flyers, newspapers,
                        brochures, mini-catalogs,   postcards, wrapped, in     goods wrapped, in         brochures, coupons,      catalogs, postcards,         community newspapers
                        wrapped or as a self-       envelope or as a self-     envelope, or as a self-   promotional items and    promotional items,           (they must be 70%
                        mailer up to 8.8 oz.        mailer up to 2.2 lbs.      mailer up to 3.5 oz.      samples, wrapped or as   samples, food items,         advertising and 30%
                                                                                                         a self-mailer up to      CDs, and DVDs                news), cards, coupons,
19




                        Specially shaped items      Specially shaped items                               3.5 oz.                  wrapped, in envelope or      leaflets, envelopes,
                        are accepted if they fit    are accepted if they fit                                                      as a self-mailer up to 4.4   catalogues, brochures,
                        the mailbox.                the mailbox.                                                                  lbs.                         magazines inserts and
                                                                                                                                                               enclosures, samples,
                                                                                                                                  Specially shaped items       CDs, and DVDs
                                                                                                                                  are accepted if they fit     wrapped, in envelope or
                                                                                                                                  the mailbox.                 as a self-mailer up to 8.1
                                                                                                                                                               oz and Reply Mail.

                                                                                                                                                               Printed and non-printed
                                                                                                                                                               items weighing between
                                                                                                                                                               17.6 oz and 2.2 lbs are
                                                                                                                                                               delivered by non-letter
                                                                                                                                                               carriers and require pre-
                                                                                                                                                               scheduled delivery.




                                                                                                                                                                                            RARC-WP-11-004
                                                                                                                                                                                               May 10, 2011
                                                                                                                                                                           Simplified Address Mail: An Easier Way
                                                                                                                                                                           U.S. Postal Service Office of Inspector General
                         AUSTRALIA POST      DEUTSCHE POST             ROYAL TNT POST                ROYAL MAIL            POSTE ITALIANE       CANADA POST




     VOLUME             NO                NO                         YES                        YES                     YES                 YES
     RESTRICTIONS                                                    Minimum                    Maximum                 Minimum             Minimum
                                                                     3000 pieces for standard   Six per day is the      5000 pieces.        One complete carrier
                                                                     distribution.              maximum number of                           route. If the mail dispatch
                                                                     2000 for targeted          unaddressed mail pieces                     is composed of less than
                                                                     distribution.              delivered to the                            the pieces necessary to
                                                                     Maximum                    households located                          fully cover a carrier route,
                                                                     Two per day is the         within the same                             the items will be
                                                                     maximum number of          postcode.                                   delivered in the order
                                                                     unaddressed mail pieces    Non-competing item                          indicated by the
                                                                     delivered to the           policy                                      customer until depleted.
                                                                     households located         The households located
                                                                     within the same zip        within the same
                                                                     code.                      postcode do not receive
                                                                                                more than one
                                                                                                advertising piece per
                                                                                                product category at a
                                                                                                time.
20




     SPECIAL            NO                YES                      NO                           NO                      NO                  YES
     TOOLS/OFFERS FOR                     “Mailing Factory”:                                                                                “Direct Marketing
     SMALL BUSINESSES                     A do-it-yourself, online                                                                          Online™”:
                                          application to create an                                                                          A do-it-yourself, online
                                          unaddressed mail piece                                                                            application to create an
                                          by using premade                                                                                  unaddressed mail piece
                                          templates, select the                                                                             by using premade
                                          target area, pay and                                                                              templates, select the
                                          send the piece to                                                                                 target area, pay, and
                                          Deutsche Post for                                                                                 send the piece to
                                          printing and mailing.                                                                             Canada Post for printing
                                                                                                                                            and mailing.
                                          “Umfeld Promotion”:
                                          Local unaddressed mail
                                          specialists advise small
                                          retailers on how to plan
                                          and implement their
                                          campaign.




                                                                                                                                                                           RARC-WP-11-004
                                                                                                                                                                              May 10, 2011
                                                                                                                                                                                                      Simplified Address Mail: An Easier Way
                                                                                                                                                                                                      U.S. Postal Service Office of Inspector General
                             AUSTRALIA POST            DEUTSCHE POST               ROYAL TNT POST                   ROYAL MAIL                 POSTE ITALIANE                CANADA POST




     ANCILLARY SERVICES Electronic sending of       Online mapping tools for    Geo-demographic               Online mapping tools for Delivery day selection.          Online mapping tools for
     (free and paid)    mailing forms.              selecting the delivery      targeting: online tools for   selecting the delivery                                    selecting the delivery
                                                    area, calculating the       selecting specific groups     area, calculating the    Online printing and              area, calculating the
                           Mail pick-up.            number of mailpieces.       of households based on        number of mailpieces.    mailing.                         number of mailpieces.
                                                                                their socio-demographic,
                                                    Geo-demographic             life style or consumption     Geo-demographic               Outsourcing of mail         Geo-demographic
                                                    targeting: online tools for characteristics.              targeting: online tools for   sorting and preparation.    targeting: online tools for
                                                    selecting specific groups                                 selecting specific groups                                 selecting specific groups
                                                    of households based on Web-based tools for                of households based on        Mail distribution tracking. of households based on
                                                    their socio-demographic, online sorting,                  their socio-demographic,                                  their socio-demographic,
                                                    life style or consumption preparation, and labeling       life style or consumption     Bulk printing services.     life style or consumption
                                                    characteristics.            of the mail dispatch.         characteristics.                                          characteristics.

                                                    Web-based tools for      Outsourcing of mail              Web-based tools for                                       Web-based tools for
                                                    online sorting,          sorting and preparation.         online sorting,                                           online sorting,
                                                    preparation and labeling                                  preparation and labeling                                  preparation, and labeling
                                                    of the mail dispatch.    Bulk printing.                   of the mail dispatch.                                     of the mail dispatch.

                                                    Unaddressed mail                                          Unaddressed mail                                          Delivery day selection.
21




                                                    campaign outsourcing,                                     campaign outsourcing,
                                                    from mail piece creation                                  from mail piece creation                                  Consultancy services on
                                                    to printing, preparation                                  to printing, preparation                                  mail piece design.
                                                    and delivery.                                             and delivery.
                                                                                                                                                                        Unaddressed mail
                                                    Online printing and                                       Delivery day selection.                                   campaign outsourcing,
                                                    mailing (hybrid                                                                                                     from mail piece creation
                                                    unaddressed mail).                                        Consultancy services on                                   to printing, preparation,
                                                                                                              mail piece design.                                        and delivery.
                                                    Bulk printing.
                                                                                                              Bulk printing.                                            Online printing and
                                                    Consultancy services on                                                                                             mailing (hybrid
                                                    mail piece design.                                                                                                  unaddressed mail).

                                                    Unaddressed mail pallet                                                                                             Bulk printing.
                                                    storage.
                                                                                                                                                                        Mail distribution tracking.
                                                    Mail pick up.




                                                                                                                                                                                                      RARC-WP-11-004
     MAILING IN ADVANCE YES                         NO                          NO                            YES                           YES                         NO
     BOOKING            No less than three                                      Although orders must be       No less than one week         Five days prior to the




                                                                                                                                                                                                         May 10, 2011
                        weeks and no more than                                  placed five weeks             prior to the week of          delivery of the dispatch
                        three months prior to the                               prior to the week of          distribution and              to the mail acceptance
                        delivery date.                                          distribution.                 up to two years in            unit.
                                                                                                              advance.
                                                                                                                                                                                                    Simplified Address Mail: An Easier Way
                                                                                                                                                                                                    U.S. Postal Service Office of Inspector General
                          AUSTRALIA POST                 DEUTSCHE POST                ROYAL TNT POST             ROYAL MAIL                 POSTE ITALIANE                 CANADA POST




     MAIL SORTING AND   Mail has to be sorted at      Mail has to be sorted at      Not Available          Mail has to be sorted at      Mail has to be sorted at      Mail has to be sorted at
     PREPARATION        the delivery unit level.      the delivery unit level.                             the delivery unit level.      the delivery unit level.      the carrier route level.

                        Mail is bundled in lots of    Mail is bundled in lots of                           Mail is bundled in lots of    Mail is bundled in lots of    Mail bundles of equal
                        equal quantity, placed in     equal quantity, placed in                            equal quantity, placed in     equal quantity, placed in     quantity, labeled by
                        trays grouping the items      trays grouping the items                             trays grouping the items      trays grouping the items      carrier routes are placed
                        going to the same             going to the same                                    going to the same             going to the same             in trays grouping the
                        delivery unit, labeled with   delivery unit, labeled with                          delivery unit, labeled with   delivery unit, labeled with   items going to the same
                        a form indicating the         a form indicating the                                a form indicating the         a form indicating the         delivery unit and labeled
                        number of pieces for          number of pieces for                                 number of pieces for          number of pieces for          with a form indicating the
                        each delivery route.          each delivery route.                                 each delivery route.          each delivery route.          urban or rural destination
                                                                                                                                                                       facility where the trays
                                                                                                                                                                       will be delivered.
     MAIL ACCEPTANCE    Bulk mail acceptance          Bulk mail acceptance          Special unaddressed    Special unaddressed           Area sorting centers.         Destination delivery
                        units.                        units.                        mail sorting center.   mail acceptance units.                                      units.

                                                      Major post offices or                                                                                            Selected post offices and
                                                      retail outlets with                                                                                              sorting centers.
                                                      business customer
22




                                                      consultants.
     DELIVERY           Between Monday and            Within four working days Mail dispatched on a        Any day of the delivery       After 7-9 days from the       Between 1 and 5
     STANDARDS          Friday of the delivery        from acceptance.         Wednesday is delivered      week selected by the          day of acceptance for         business days from
                        week selected by the                                   on the following            mailer during the             items up to 5.3 oz and        acceptance by the final
                        mailer during the                                      Thursday or Friday.         booking.                      after 25 days for items       delivery unit, depending
                        booking.                                                                                                         between 17.6 oz and           on the size of the items
                                                                                                                                         26.5 oz.                      and the type of delivery
                                                                                                                                                                       routes.
     START UP           NO                            NO                            NO                     NO                            NO                            NO
     FEES/PERMIT




                                                                                                                                                                                                    RARC-WP-11-004
                                                                                                                                                                                                       May 10, 2011
                                                                                                                                                                                                           Simplified Address Mail: An Easier Way
                                                                                                                                                                                                           U.S. Postal Service Office of Inspector General
                                 AUSTRALIA POST                 DEUTSCHE POST              ROYAL TNT POST                  ROYAL MAIL                 POSTE ITALIANE               CANADA POST




     OPT-OUT OPTIONS           Recipients can request        Recipients can display a    Households can request       Recipients can fill out an   Recipients can display a    Recipients can display a
     FOR RECIPIENTS            from the “Australian          “No Unaddressed             from the local council a     opt-out form on Royal        “No Unaddressed             “No Unaddressed
                               Distribution Standard         Advertising Material”       “No Unaddressed              Mail’s Door-to-Door          Advertising Material”       Advertising Material”
                               Board” a “No                  sticker on their mailbox.   Advertising Material”        website.                     sticker on their mailbox.   sticker on their mailbox.
                               Unaddressed Advertising                                   sticker for their mailbox.
                                                        Deutsche Post maintains
                               Material” sticker for their                                                                                                                     Canada Post maintains a
                               mailbox.                 a database with all     TNT maintains a                                                                                database with all
                                                        advertising mail non-   database with all                                                                              advertising mail non-
                               Australia Post maintains delivery points.        advertising mail non-                                                                          delivery points.
                               a database with all                              delivery points.
                               advertising mail non-                                                                                                                           The database is
                               delivery points.                                 The database is                                                                                available to mailers free
                                                                                available to mailers free                                                                      of charge.
                               Just 20 percent of                               of charge.
                               Australians have opted
                               out from receiving
                                                  24
                               unaddressed mail.
     ANNUAL VOLUMES            Population (millions):   Population (millions):  Population (millions):                Population (millions):       Population (millions):      Population (millions):
                     25
     2008 (Domestic)           20.951.                  82.534.                 16.450.                               61.019.                      58.946.                     33.170.
23




                               Total mail volumes(000): Total mail volumes(000): Note: Netwerk VSP, a                 Total mail volumes(000): Total mail volumes(000): Total mail volumes(000):
                                                                                                                                                                                    27
                               5,328,680.               21,818,000.              subsidiary of TNT Post,              18,767,000.              6,138,271.               11,646,000.
                                                                                 is the market leader in
                               Total advertising mail   Total advertising mail   unaddressed mail                     Total advertising mail       Total advertising mail      Total advertising mail
                               volumes (000):           volumes (000):           delivery in the                      volumes:                     volumes (000):              volumes (000):
                               1,356,308.               11,852,000.              Netherlands, delivering              Not Available.               1,750,914.                  5,563,794.
                                                                                 over 5 billion pieces a
                                                                                       26
                               Addressed mail           Addressed mail           year.                                Addressed mail               Addressed mail              Addressed mail
                               volumes(000):            volumes (000):                                                volumes:                     volumes (000):              volumes (000):
                               781,000.                 6,912,000.                                                    Not Available.               1,160,056.                  1,503,178.

                               Unaddressed mail              Unaddressed mail                                         Unaddressed mail             Unaddressed mail            Unaddressed mail
                               volumes (000):                volumes (000):                                           volumes:                     volume (000):               volumes (000):
                               575,308.                      4,940,000.                                               Not Available.               590,858.                    4,060,616.




                                                                                                                                                                                                           RARC-WP-11-004
     24




                                                                                                                                                                                                              May 10, 2011
          Australian Catalog Association – Unaddressed Mail and its Contribution to Australian Economy – An economic review 2009.
     25
          Universal Postal Union – Postal Statistics Database 2008.
     26
          TNT Post website 2011 – http://tntpost.com/infopage/netherlands.asp.
     27
          Canada Post – Annual Report 2008, p.73.
U.S. Postal Service Office of Inspector General                                                         May 10, 2011
Simplified Address Mail: An Easier Way                                                               RARC- WP-11-004




Appendix B                  Projected Annual Postal Service Financial Benefit

This calculation assumes that Postal Service simplified address Standard Mail volume
attains Canada Post’s 2009 Unaddressed Admail volume level, per capita, and has the
same profit margin as 2010 Saturation Standard Mail. Only flat-size mail is considered,
because the Postal Service currently only allows flat-sized pieces for simplified address.



 Line     Part 1 – Estimated Postal Service Simplified Address Volume                                    Amount

   1      2009 Canada unaddressed mail volume                                                           3,640 million
   2      2009 Canada population                                                                           34 million
   3      2009 Canada unaddressed mail volume, per capita                                                 107 pieces
   4      2010 U.S. population                                                                           308 million
   5      Estimated Postal Service Simplified Address Volume                                       33 billion pieces


          Part 2 – Estimated Postal Service Financial Benefit                                            Amount

   6      Postal Service 2010 Saturation letter mail volume                                                 3.3 billion
   7      Postal Service 2010 Saturation flat mail volume                                                   9.5 billion
   8      Total existing Saturation mail volume                                                           12.8 billion
   9      Estimated new Saturation flat mail volume total                                                 24.5 billion
  10      Estimated additional simplified address flat mail volume                                        15.0 billion
  11      Destination Delivery Unit (DDU) Saturation mail price                                                $0.142
  12      Saturation mail contribution percentage                                                               55.2%
  13      Estimated Postal Service Financial Benefit                                                 $1.2 billion

Notes:

Line 1: 2009 Canada Post Annual Report
Line 3 = Line 1 / Line 2
Line 5 = Line 3 * Line 4 (Assuming same per capita volume in U.S. as Canada)
Line 6: Postal Service volume data
Line 7: Postal Service volume data
Line 8 = Line 6 + Line 7
Line 9 = Line 5 * (Line 7 / Line 8) (Assuming same proportion of Simplified Address will be flats)
Line 10 = Line 9 – Line 7 (New Saturation flat mail total minus existing Saturation flat mail total equals estimated
additional volume)
Line 11: Postal Service price list – DDU Saturation Standard Mail flats
Line 12: 2010 Cost and Revenue Analysis report (High Density and Saturation Flats and Parcels –
Contribution/Revenue)
Line 13 = Line 10 * Line 11 * Line 12




                                                            24
